<html>
<title> - H.R. 5151, WILD MONONGAHELA ACT: A NATIONAL LEGACY FOR WEST VIRGINIA'S SPECIAL PLACES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      H.R. 5151, WILD MONONGAHELA 
                      ACT: A NATIONAL LEGACY FOR 
                    WEST VIRGINIA'S SPECIAL PLACES 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, February 26, 2008

                               __________

                           Serial No. 110-59

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

40-906 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington               Robert J. Wittman, Virginia
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio





















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 26, 2008.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
        Prepared statement of....................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     3

Statement of Witnesses:
    Bittner, Robert, Member, Board of Directors, Mountaineer 
      Chapter of Trout Unlimited.................................    23
        Prepared statement of....................................    25
    Holtrop, Joel, Deputy Chief, National Forest System, Forest 
      Service, U.S. Department of Agriculture....................     5
        Prepared statement of....................................     6
    Manchester, Hon. John, Mayor, City of Lewisburg, West 
      Virginia...................................................    10
        Prepared statement of....................................    12
    Price, Michael, President, USW Local 8-89, AFL-CIO...........    19
        Prepared statement of....................................    20
        Two Resolutions submitted for the record.................    22
    Sparks, Rev. Dennis, Executive Director, West Virginia 
      Council of Churches........................................    14
        Prepared statement of....................................    15
    Willis, Gil, Owner and Operator, Elk River Touring Center/Elk 
      River Inn and Restaurant, Slatyfork, West Virginia.........    26
        Prepared statement of....................................    28
                                    



LEGISLATIVE HEARING ON H.R. 5151, TO DESIGNATE AS WILDERNESS ADDITIONAL 
NATIONAL FOREST SYSTEM LANDS IN THE MONONGAHELA NATIONAL FOREST IN THE 
STATE OF WEST VIRGINIA, AND FOR OTHER PURPOSES. (WILD MONONGAHELA ACT: 
         A NATIONAL LEGACY FOR WEST VIRGINIA'S SPECIAL PLACES)

                              ----------                              


                       Tuesday, February 26, 2008

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva, [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop and Rahall.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee to order. Today 
we will be receiving testimony on H.R. 5151, the Wild 
Monongahela Act. I would like to thank all our witnesses for 
being here today and look forward to their testimony. H.R. 
5151, introduced by Chairman Nick Rahall, designates 
approximately 40,000 acres of national forest land in West 
Virginia as wilderness.
    This includes three additions to existing wilderness areas 
and four new wilderness areas. H.R. 5151 includes some of the 
wildest and most wonderful areas in the wild and wonderful 
State of West Virginia, including critical habitats for various 
rare and threatened species, key areas of trout and small-mouth 
bass fishing, majestic plateaus and valleys, and excellent 
opportunities for recreation.
    Our full Committee Chairman is to be commended for his fine 
work on this measure. Chairman Rahall and I share a strong 
commitment to protecting our nation's truly wild places. 
Passage of the Wilderness Act and subsequent statutes establish 
the preservation of wilderness as one of the fundamental 
purposes of Federal land management and one of the most 
important areas of jurisdiction of this Subcommittee.
    Those who have worked on wilderness bills know that good 
wilderness proposals require compromise. Input from the 
agencies which manage our Federal lands is important. The 
Wilderness Act is very clear. Congress retains sole authority 
to designate wilderness. In practice, this means that a 
successful wilderness bill will be a consensus proposal, taking 
into account input from all relevant stakeholders.
    The measure before us today is such a proposal. In 
considering this and other wilderness bills, we should be 
careful to understand exactly what wilderness means and what it 
does not mean. For example, there are those who claim 
wilderness designations somehow conflict with the multiple use 
mandate of the National Forest System.
    In truth, wilderness is a multiple use resource. In fact, 
Congress affirmed the Wilderness Act and the Multiple Use 
Sustained Yield Act. Uses in wilderness include wildlife and 
watershed protection, hunting, fishing, recreation, grazing and 
even mining under certain circumstances. Another misconception 
is that wilderness somehow hinders fire management.
    The fact is the Wilderness Act could not be any more clear. 
Federal agencies may take such measures as may be necessary in 
the control of fire, insects and disease. Federal agencies are 
allowed to use airplanes, helicopters, bulldozers, fire trucks, 
chainsaws and other equipment they need to fight fires or to 
manage flammable vegetation.
    Fire is not a valid excuse for failing to designate 
wilderness. In the end, wilderness is not defined by the 
absence of certain activities, but rather by the presence of 
certain unique and invaluable characteristics. The answer to 
the often asked question why do you want this area to be 
wilderness is these areas are already wilderness.
    We simply want to preserve them as they are and as they 
have been for generations. At this point, let me turn to the 
Chairman of the Committee and the sponsor of the legislation, 
Mr. Rahall, for any statements he may have.
    Chairman.
    [The prepared statement of Mr. Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will come to order.
    Today we will be receiving testimony on H.R. 5151, the Wild 
Monongahela Act. I would like to thank all of our witnesses for being 
here today and look forward to their testimony.
    H.R. 5151, introduced by Chairman Nick Rahall, designates 
approximately 47,000 acres of National Forest land in West Virginia as 
wilderness. This includes three additions to existing wilderness areas, 
and four new wilderness areas.
    H.R. 5151 includes some of the wildest and most wonderful areas in 
the wild and wonderful State of West Virginia, including critical 
habitat for various rare and threatened species, key areas for trout 
and small-mouth bass fishing, majestic plateaus and valleys and 
excellent opportunities for recreation.
    Our full Committee Chairman is to be commended for his fine work on 
this measure. Chairman Rahall and I share a strong commitment to 
protecting our nation's truly wild places. Passage of the Wilderness 
Act, and subsequent statutes, established preservation of wilderness as 
one of the fundamental purposes of federal land management and one of 
the most important areas of jurisdiction of this subcommittee.
    Those who have worked on wilderness bills know that good wilderness 
proposals require compromise. Input from the agencies which manage our 
federal lands is important but the Wilderness Act is clear--Congress 
retains sole authority to designate wilderness. In practice, this means 
that a successful wilderness bill will be a consensus proposal, taking 
into account input from all relevant stakeholders. The measure before 
us today is such a proposal.
    In considering this and other wilderness bills, we should be 
careful to understand exactly what wilderness means--and what it does 
not mean. For example, there are those who claim wilderness 
designations somehow conflict with the multiple use mandate of the 
National Forest System. In truth, wilderness is a multiple use 
resource--a fact Congress affirmed in the Wilderness Act and the 
Multiple Use Sustained Yield Act. Uses in wilderness include wildlife 
and watershed protection, hunting, fishing, recreation, grazing, and 
even mining, under certain circumstances.
    Another misconception is that wilderness somehow hinders fire 
management. The fact is, the Wilderness Act could not be more clear: 
``Federal agencies may take such measures as may be necessary in the 
control of fire, insects, and diseases.'' Federal agencies are allowed 
to use airplanes, helicopters, bulldozers, fire trucks, chain saws and 
any other equipment they need to fight fires OR to manage flammable 
vegetation. Fire is not a valid excuse for failing to designate 
wilderness.
    In the end, wilderness is not defined by the absence of certain 
activities but rather by the presence of certain unique and invaluable 
characteristics. The answer to the often-asked question, ``why do you 
want this area to be wilderness?'' is, these areas already are 
wilderness, we simply want to preserve them as they are and as they 
have been for generations.
    I'd now like to recognize Chairman Nick Rahall, the sponsor of this 
bill, for any statement he may have.
                                 ______
                                 

STATEMENT OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Chairman Grijalva. I appreciate you 
and Ranking Member Bishop for reserving some of this important 
Subcommittee's valuable time for the purpose of holding a 
hearing on legislation to designate new wilderness areas within 
the Monongahela National Forest. The Wild Monongahela Act was 
introduced in the House by Representatives Mollohan, Capito and 
myself, and in the Senate by Senators Byrd and Rockefeller.
    This bill is truly about the heart and soul of West 
Virginia. As West Virginians, we are intimately connected to 
our land. Our roots are planted deeply in our misty hollows and 
our majestic mountains.
    We know that we will be judged by future generations on our 
stewardship of this land that is West Virginia, and so I 
believe that it is of paramount importance that we once again 
set aside some of God's handiwork in our forests by preserving 
these Federal lands in their pristine state.
    I want to thank those West Virginians who are with us 
today. My good friend, the Mayor of Lewisburg, John Manchester, 
is here to discuss how many communities view wilderness as an 
engine of economic development. Also with us is The Reverend 
Dennis Sparks with the West Virginia Council of Churches.
    Reverend Sparks has compiled a wonderful brochure 
describing how in wilderness we learn about God, how we 
cultivate our communities and how we cleanse our minds and our 
spirits. The working men and women of West Virginia are 
represented today by Mike Price with the AFL-CIO, which has 
endorsed a resolution supporting new wilderness in the State.
    Also here today is Bob Bittner, Jr., who is representing 
Trout Unlimited and West Virginia's avid anglers. I am also 
pleased that Gil Willis is able to join us representing 
businesses who depend on outdoor recreation for their 
livelihood. There are several other West Virginians who have 
traveled to our nation's capital today to attend this hearing, 
and I want to thank them as well for all their hard work on 
this legislation.
    I have hiked with many of them in many parts of this 
proposed area--in some parts, not many. It is a very big area, 
and I have not done many parts of it, but I have done a small 
part. Last, but certainly not least, while he is not a witness, 
in the audience is the distinguished and highly capable 
supervisor of our Monongahela National Forest, Clyde Thompson.
    So I want to thank you, Mr. Chairman, again for having this 
hearing, and Ranking Member Bishop, and thank you for 
recognizing me.
    Mr. Grijalva. Mr. Chairman, let me turn to our Ranking 
Member, Mr. Bishop, for any statement he may have.
    Sir.

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Chairman Grijalva and Chairman 
Rahall. I appreciate this opportunity of being here and 
listening to the discussion about wild and wonderful West 
Virginia. You did not tell which of our Representatives from 
West Virginia are wild and which ones are wonderful, but I am 
assuming you will do that as time goes on.
    If it is OK, I would ask unanimous consent that a full and 
complete statement be entered into the record. I will say that 
you seem in first blush to have a bill that has the unanimous 
support of the House delegation that has been studied by the 
Forest Service in the seven areas that are mentioned in this 
bill with a few minor adjustments seem to have gone through a 
rigorous study.
    As long as this bill that we have before us that was 
introduced that is unanimously supported seems to have cleared 
a lot of the hurdles it could easily be done.
    Mr. Grijalva. Thank you, Mr. Bishop. Without objection, the 
material is entered into the record.
    [The prepared statement of Mr. Bishop follows:]

  Statement of The Honorable Rob Bishop, a Representative in Congress 
                         from the State of Utah

    My general approach to wilderness bills and other designations that 
result in highly restrictive land use policies is that we should first 
make sure that we are not foreclosing future access to resources that 
may be critically important to our national well-being and second, that 
we show some deference to the people who live in the area and are most 
affected by these decisions.
    Those of us who live in the western public land states know that 
Washington politicians and bureaucrats can be very generous in giving 
in to the demands of environmental special interest groups at the 
expense of local people whose daily lives and whose ability to provide 
for their families can be devastated by such federal actions.
    Sometimes we enact ``feel good'' bills and only later discover the 
unanticipated, real world side-effects. Therefore, I look forward to 
hearing today's testimony and I thank the panel members for their 
willingness to give us their thoughts on this bill and to answer our 
questions.
                                 ______
                                 
    Mr. Grijalva. Let me call our first panelists up if we may. 
For this panel, as well as the second set of panelists, your 
statement in its entirety will be entered into the record. Any 
additional materials you want to add will also be entered into 
the record. We have five minutes for your testimony.
    With that, let me introduce the Deputy Chief, national 
Forest System, Mr. Holtrop, who has been with us before. 
Welcome back, sir, and with that, your testimony, sir.

           STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, USDA FOREST SERVICE

    Mr. Holtrop. Mr. Chairman, thank you. Chairman Rahall, 
Chairman Grijalva, Ranking Member Bishop, it is my privilege to 
be able to submit my formal testimony for the record, but I 
want to sum that up very briefly by making a few key points. I 
would like to start off by expressing my personal appreciation 
and administration's appreciation to you for this bill because 
it allows us to focus on something that we at the Forest 
Service care very deeply about and that is wilderness.
    The Forest Service has a long history of establishing areas 
that should be managed for their wild character. We have a long 
history of managing wildernesses that sustain those wilderness 
qualities, and we are proud of that long history.
    Mr. Chairman, I took an opportunity just a few weeks ago to 
visit some of the areas, many of the areas, that are proposed 
in this bill. I saw and visited four of the areas of the seven 
that are being proposed, and I can tell you that they do have a 
special wildness about them that Americans should be able to 
enjoy for generations to come.
    In 2006, the Monongahela National Forest recommended 
wilderness designation for four of these areas: Cheat Mountain, 
Cranberry Expansion, Dry Fork Expansion and Roaring Plains 
West. These areas have outstanding wilderness attributes, and 
the administration strongly supports their wilderness 
designation.
    We commend the sponsors for including them in this bill. We 
also appreciate the wilderness attributes of the other three 
areas in this bill: Big Draft, the Dolly Sods Expansion and 
Spice Run. The Monongahela National Forest evaluated these 
areas as part of its forest plan revision, and we came to the 
conclusion that these three areas meet the criteria for 
wilderness.
    To protect their wilderness attributes while striking a 
balance among multiple uses we designated these three areas as 
semiprimitive, nonmotorized areas. Semiprimitive, nonmotorized 
is one of the most restricted allocations the Forest Service 
can give, and we have no objection to designating these three 
areas as wilderness.
    We do have a few concerns about some of the proposed 
wilderness boundaries, but we are confident that they can be 
fixed through adjustments that are mostly minor. For example, 
we have some campgrounds that should be adjusted away from the 
wilderness boundary, power line corridors that we should 
provide some buffer between the power line and the wilderness 
and perhaps the biggest adjustment might be to the Spice Run 
proposed area.
    The southwestern corner of Spice Run, a 974 acre area, was 
not evaluated for wilderness in the forest plan, and if 
motorized access issues were to come up on three parcels of 
private land in that portion of the Spice Run area, that would 
create some issues for us.
    Again, we feel that we have some minor boundary adjustments 
that we think are consistent with the spirit of this wilderness 
bill that would accomplish a lot of the management concerns 
that we have around a few of these minor boundaries. We would 
appreciate the opportunity to present those boundary proposals 
and to work with the Subcommittee on that issue.
    I have been hiking, and camping and climbing in wilderness 
for as long as I can remember. My family and my agency are 
passionate about wilderness. The Forest Service is charged with 
stewardship for 407 wilderness areas, and that is a third of 
the national wilderness preservation system. Together with 
America's other wilderness stewards we are dedicated to 
protecting and managing America's wildest lands.
    We strongly support the spirit of this bill, and we are 
confident that working together we can arrive at final 
wilderness boundaries that are sound and manageable. I am 
pleased to be able to represent Forest Supervisor Clyde 
Thompson and other members of the staff at the Monongahela 
National Forest who are here with us today and all of the 
people of West Virginia in looking forward to a good resolution 
to this issue.
    I am pleased to be able to answer any questions that you 
might have at this time.
    [The prepared statement of Mr. Holtrop follows:]

Statement of Joel Holtrop, Deputy Chief for the National Forest System, 
          U.S. Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to provide the Administration's 
view on the Wild Monongahela Act: A National Legacy for West Virginia's 
Special Places.
    H.R. 5151 would designate about 47,128 acres of the Monongahela 
National Forest as wilderness, adding to three existing wilderness 
areas and designating four new ones. The Administration supports 
designation of Cheat Mountain, Cranberry Expansion, Dry Fork Expansion, 
and Roaring Plains West as wilderness. For all four areas, wilderness 
designation would be consistent with recommendations by the Monongahela 
National Forest in its 2006 forest plan revision.
    We do not object to wilderness designation for the other three 
areas proposed by the bill. In the environmental impact statement that 
accompanied the 2006 forest plan revision, the Monongahela National 
Forest determined that Big Draft, the Dolly Sods Expansion, and Spice 
Run are all available for wilderness designation. The Monongahela 
National Forest designated all three areas as ``semiprimitive 
nonmotorized'' in order to help maintain their roadless attributes over 
time while still permitting other established uses.
    The Monongahela National Forest has five existing wilderness areas, 
all of which offer outstanding wilderness experiences. I have 
personally visited some of the seven areas proposed in this bill, and I 
believe that all seven areas have outstanding wilderness attributes. 
All are rugged forested land minimally affected by outside forces, with 
natural processes operating and vestiges of human impacts (such as old 
roads and clearcuts) rapidly healing over. Ranging in elevation from 
just under 2,000 feet to over 4,000 feet, these landscapes harbor rare 
ecosystems (such as high-elevation red spruce) and habitat for 
federally listed species.
    That is why the Monongahela National Forest recommended four of the 
seven areas for wilderness study in its revised forest plan in 2006: 
Cheat Mountain, Cranberry Expansion, Dry Fork Expansion, and Roaring 
Plains West. These units represent nearly 27,700 acres recommended for 
wilderness study. The Administration supports their inclusion in this 
bill.
    In its forest plan revision, after consulting with the public, the 
Monongahela National Forest decided not to include Big Draft, the Dolly 
Sods Expansion, and Spice Run among the areas recommended for 
wilderness. Instead, we designated all three as semiprimitive 
nonmotorized areas, one of the most restrictive allocations that the 
Forest Service can give. This management prescription protects their 
naturalness while permitting such popular and relatively low-impact 
uses as mountain biking. It also allows the manipulation of vegetation 
to create wildlife openings.
    However, we recognize the wilderness eligibility of all three 
areas, and their designation as wilderness would be consistent with 
values that the Monongahela National Forest's revised forest plan is 
designed to protect. In other locations, the Monongahela National 
Forest maintains opportunities for mountain biking and for manipulating 
vegetation to improve wildlife habitat. Therefore, the Administration 
would not object to including Big Draft, the Dolly Sods Expansion, and 
Spice Run in this bill if boundary adjustments and other issues are 
addressed.
    If all seven areas are designated as wilderness, we would suggest 
adjusting some of the proposed boundaries to avoid conflicts and make 
the wilderness areas more manageable. Some proposed boundaries appear 
to be based on the boundaries of the roadless areas analyzed during the 
2006 forest plan revision. Those roadless area boundaries were not 
intended to define wilderness boundaries. Adjustments should be made to 
account for mapping errors; to provide access to state and private 
land; to exclude developed sites and managed wildlife openings; to add 
offsets for powerlines and other features inconsistent with wilderness; 
and to align the boundaries with existing wilderness boundaries.
    The largest boundary question regards the southwestern corner of 
the proposed Spice Run unit, an area of 974 acres. This area lies 
outside the area that the Monongahela National Forest evaluated for 
wilderness in its 2006 forest plan because it did not meet the criteria 
for roadless areas. Should it become designated wilderness, motorized 
access to three adjacent parcels of private land could become an issue.
    We would like to work with the bill's sponsors and the subcommittee 
to adjust the boundaries to accommodate these and other concerns. The 
Forest Service has prepared a set of proposed boundary adjustments, 
taking care to ensure that our proposed adjustments would not detract 
from the overall wilderness legislation. We would welcome the 
opportunity to provide this information to the subcommittee.
    Removing most of the structures incompatible with wilderness would 
not be necessary if our proposed boundary adjustments were made. Even 
with the adjustments, however, a hiking shelter and about 9 miles of 
road would remain within the wilderness boundaries. The shelter would 
likely be allowed to deteriorate and then removed. Unless converted to 
trails, the roads (currently closed to vehicular traffic) would require 
decommissioning to protect water quality and other natural resource 
values. The Monongahela National Forest would conduct an analysis to 
determine the appropriate management actions and then make the 
investments needed, subject to available appropriations, to remove 
culverts, construct trail, or contour the land to reduce erosion.
    We strongly support the spirit of this legislation, and we confirm 
that all seven areas proposed for wilderness designation meet the 
criteria for wilderness. Working with the subcommittee, we are 
confident that we can remedy boundary deficiencies and establish final 
wilderness boundaries that are sound and manageable.
    This concludes my prepared statement, and I would be pleased to 
answer any questions you might have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir. Thank you for your 
positive testimony today. You have mentioned in your testimony 
many of these areas were recommended as wilderness under the 
forest plan, and the others are currently managed as 
semiprimitive, nonmotorized areas. Could you give us a 
definition of semiprimitive, nonmotorized areas?
    Mr. Holtrop. I can. It is very restrictive allocation of 
land in the forest plan. It is an area that is being managed 
for disbursed recreation opportunities, back country type 
opportunities, and it is an administrative designation as 
opposed to a legislative designation, and it does allow some 
minimum additional uses such as mountain biking and some of 
those types of activities and perhaps some wildlife opening 
work.
    Those were some of the issues, multiple uses, that we were 
looking at that led to that designation in the forest plan.
    Mr. Grijalva. Thank you. One last question. You raise the 
issue of removing culverts on page 4 of your testimony. Would 
the minimum tools policy already in the Wilderness Act allow 
you to remove the culverts if necessary in these wilderness 
areas?
    Mr. Holtrop. Yes, it would. If that is the approach that we 
would need to take. If the areas were designated wilderness, 
and we had culverts that we felt needed to be removed, we would 
do a minimum tools analysis and do whatever was necessary to 
protect the resource.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. Mr. Holtrop, appreciate you being here again. I 
am looking at a map right now of these proposed areas. Can you 
just tell me the names of the four areas that were recommended 
by the Forest Service to be wilderness?
    Mr. Holtrop. Yes, I can. It is Cheat Mountain, the 
Cranberry Expansion, the Dry Fork Expansion and Roaring Plains 
West.
    Mr. Bishop. And the three areas that you say have some 
characteristics but are to be added as well would be the Spice 
Run and Big Draft?
    Mr. Holtrop. Spice Run, Big Draft and the Dolly Sods North.
    Mr. Bishop. OK. Did you do a complete inventory of all the 
forest lands that you have in this area?
    Mr. Holtrop. Yes, we did.
    Mr. Bishop. And you are satisfied that these seven fit 
those requirements?
    Mr. Holtrop. Yes. Through the forest planning process we 
looked at a total of 18 roadless areas, these seven being seven 
of those 18, and so I am very satisfied that as we went through 
that analysis that these areas do meet the requirements of 
wilderness.
    Mr. Bishop. I guess if you had recommended four only then 
there probably are not a whole lot of others that would be 
coming even close to that kind of category, right?
    Mr. Holtrop. Of the roadless areas that were analyzed 
through the forest planning process many of them had wilderness 
characteristics and ended up with a designation in the forest 
plan again of the semiprimitive, nonmotorized to protect that 
wild nature.
    Again, the reasons for not proposing them for wilderness 
had more to do with existing uses or opportunities for other 
uses that through the public process involved in that forest 
plan process it seemed like that was the right place for us to 
go.
    However, as the testimony mentions, the purposes of the 
forest plan are largely met with a wilderness designation in 
these three areas, and we would need to find opportunities for 
those uses in other areas in the forests, and we would be 
committed to doing so.
    Mr. Bishop. Well, the original definition of wilderness in 
the original act was simply untrampled by human man. Even 
though one of those areas does have a shed and a road, that is 
close enough for government work, right? Let me ask you a 
better question than that one.
    Mr. Holtrop. I would appreciate that.
    Mr. Bishop. That was rhetorical anyway. Are there any areas 
within these proposed wilderness boundaries that have been 
acquired or have been improved with funds from duck stamps or 
the excise tax on hunting and fishing through acts like 
Pittman-Robertson and Dingell-Johnson?
    Mr. Holtrop. I am sorry.
    Mr. Bishop. Are there any areas of the proposed wilderness 
boundaries, these seven sections, that were either acquired or 
improved from funds that came from duck stamps or the excise 
tax on hunting and fishing through bills like the Pittman-
Robertson bill and the Dingell-Johnson bill?
    Mr. Holtrop. I don't have the answer to that question. Be 
more than happy to get an answer for that for the record.
    Mr. Bishop. And if it is not, that is not an issue. If it 
is, and those monies were specifically taken for management 
purposes, how does that impact if wilderness therefore lacks 
the kind of management purposes for which that money was 
acquired and which that money--that money is not going to be 
used if the management style does not fit into the concept of 
wilderness, so would that have an impact on the decision if 
indeed any of those lands were acquired through that means of 
funding?
    Mr. Holtrop. I would have to look into that a little bit 
more than I am feeling comfortable in responding to that right 
now. There is plenty of hunting opportunities within 
wilderness, so I am not absolutely certain that I would say 
that would be inconsistent with the purposes of----
    Mr. Bishop. Yes, and I don't think it would prohibit any 
kind hunting activity. It would be the management activities of 
the Forest Service that may have some kind of impact. We have 
plenty of time to look at that between now and the bill further 
moving through this session, so if you could look at that I 
would appreciate it.
    Mr. Holtrop. Be happy to do that.
    Mr. Bishop. I will yield back or I will yield to you, sure.
    Mr. Rahall. Appreciate the gentleman from Utah yielding. In 
response to your question, it is my understanding that no funds 
from those acts that you mentioned were used for acquisition of 
these proposed wilderness areas, but rather the funds were 
created by the Weeks Act of 1911, as were most all of the 
wilderness areas in the east. I believe that is my 
understanding of it.
    Mr. Holtrop. The vast majority of the National Forest 
System lands in the east were acquired through the Weeks Act. 
That is correct.
    Mr. Bishop. I appreciate it. That may well be the case and 
may be a moot issue, but if you could give me some further 
detail on that I would be appreciative. Thank you, sir.
    Mr. Grijalva. Thank you, Mr. Bishop. Mr. Chairman, any 
questions?
    Mr. Rahall. Thank you, Mr. Chairman. Just one question. I 
know the answer to it, but I want to be clear and get it on the 
record anyway. I am sure that you are aware that the Governor 
of West Virginia now has a proposal to designate about 4,000 
acres more of wilderness in what is in the delegations' bill.
    The Governor supports five of the seven areas in the 
delegations' bill, but he would drop Cheat Mountain and Spice 
Run, and he would add three more areas, Roaring Plains East and 
North and a portion of Seneca Creek. As I said, I know the 
answer to the question but, for the record, were these three 
areas considered by the Forest Service as part of the roadless 
review for their wilderness potential as part of the planning 
process?
    Mr. Holtrop. Yes, they were. Those are three of the 18 
areas that I referred to earlier. Through the forest plan 
designation process each of them were designated for the 
semiprimitive, nonmotorized.
    Mr. Rahall. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. If there is no further questions 
from my colleagues, thank you very much for your testimony. 
Appreciate it.
    Mr. Holtrop. Thank you very much.
    Mr. Grijalva. Let me call the next panel up. The Honorable 
John Manchester, Mayor, City of Lewisburg; Reverend Dennis 
Sparks, Executive Director, West Virginia Council of Churches; 
Mr. Mike Price, West Virginia AFL-CIO; Mr. Bob Bittner, Jr., 
Mountaineer Chapter of Trout Unlimited; Mr. Gil Willis, Elk 
River Inn & Restaurant. Gentlemen.
    Mr. Rahall. Mr. Chairman?
    Mr. Grijalva. Yes, sir?
    Mr. Rahall. If I may just for a moment while they are 
taking their seats. These are a few of the West Virginians that 
I recognized in my opening comments.
    There are many other West Virginians in attendance, I might 
add, and I know I still will miss some, but I do want to 
recognize Mary Whimer and Beth Whittle, David Seville, Matt 
Keller, many of these individuals with whom, including the 
Mayor of Lewisburg, I hiked portions of the Big Draft a year or 
two ago.
    I want to welcome them, as well as those I have missed, to 
this Subcommittee hearing this morning. Thank you, Mr. 
Chairman.
    Mr. Grijalva. Thank you, Mr. Chairman. Let me begin with 
The Honorable John Manchester for his testimony.
    Mayor.

          STATEMENT OF THE HONORABLE JOHN MANCHESTER, 
                    MAYOR, CITY OF LEWISBURG

    Mr. Manchester. Mr. Chairman, Congressman Rahall, 
distinguished Members of the Subcommittee, good morning. My 
name is John Manchester, and I am Mayor of Lewisburg, West 
Virginia, a small city of 3,700 people just a few miles from 
the southern end of the Monongahela National Forest in the 
southeastern part of the state.
    I am speaking in favor of H.R. 5151, the Wild Monongahela 
Act, and I appreciate the opportunity to be with you today. As 
I am sure you have heard regularly from Congressman Rahall and 
the other Members of the West Virginia congressional 
delegation, West Virginia is a unique place with unique people.
    My city, Lewisburg, is a good example. Founded in 1872, we 
are one of the oldest towns in West Virginia and the County 
Seat of Greenbrier County. Our lifeblood is tourism, and we 
have been careful to preserve our historic downtown, which is 
thriving. Our vibrant downtown stands in marked contrast with 
many other downtowns throughout West Virginia and across the 
country which have not recognized the value of the asset that 
an historical downtown represents.
    It is something special, something in which we take pride, 
something that forms a strong foundation for our local economy 
and something we can pass on to those who follow. As an elected 
official, I believe it is my charge to maintain assets 
entrusted to me and to pass them along in as good or better 
condition to my successors.
    I feel the same way about the wild areas of the Monongahela 
National Forest that would be protected under this legislation. 
The wilderness areas described in this bill are special places 
to my city, to West Virginia and to the rest of the nation. 
They are natural assets that should be valued and protected as 
they are, not only for the value they offer us today but for 
the even greater value they will have for future generations.
    Roadless areas are scarce in the eastern United States, and 
if we do not take steps now to recognize their value and 
protect them I feel they will disappear year after year in 
small increments until they no longer have real value as wild 
areas, areas where man truly is a visitor amidst the natural 
world and not the dominant feature.
    The scarcity of roadless wild areas that would be protected 
in this bill create specific value to communities like 
Lewisburg which serve as access points to them. Several months 
ago I had the pleasure of exploring one of the wild areas 
covered in this bill, the area known as Big Draft, with the 
Chairman of the House Natural Resources Committee, Congressman 
Rahall, and it was a wonderful day.
    Big Draft is located just 14 miles from Lewisburg. The 
proposed Spice Run Wilderness Area is about 30 miles away. 
Lewisburg is a natural staging area for visitors and residents 
alike who seek out designated wilderness areas. Just as having 
a well-preserved historic downtown helps our local economy, so, 
too, does having designated wilderness areas at our doorstep.
    The added economic stimulus to our tourism-based economy is 
one reason why both Lewisburg City Council and the Greenbrier 
County Convention and Visitors Bureau support additional 
wilderness areas in the Monongahela National Forest, especially 
those proposed for Greenbrier County, which currently has none 
despite having nearly 108,000 acres of national forest within 
the county.
    Lewisburg also supports the protection of Big Draft and 
Spice Run in particular because they are a part of the 
headwaters of the Greenbrier River, the source of Lewisburg's 
water system, the largest water utility in Greenbrier County, 
providing top quality water to over 10,000 people in our 
valley.
    Lewisburg is not alone in local government support for 
additional wilderness areas. The following cities and towns 
have passed resolutions in support of designating additional 
wilderness areas in the Monongahela National Forest: 
Montgomery, Morgantown, Nitro, Nutter Fort, Shepherdstown, 
Weston, Renick, Whitehall, Grafton and Matoaka, as well as the 
Fayette County Commission.
    I submit into the record Lewisburg's wilderness support 
resolution, which was attached to my remarks. The other 
resolutions are very similar. I think H.R. 5151, the Wild 
Monongahela Act, is a very good bill and a great start toward 
protecting many of the special places within the National 
Forest in West Virginia, and I hope you will support it.
    In closing, I wish to express my appreciations to the 
Members of this Committee for their interest in the wild areas 
in West Virginia, and in particular, I would like to recognize 
the leadership of West Virginia Congressman Nick Rahall for 
bringing this legislation to this point. Thank you.
    Mr. Grijalva. Thank you, Mr. Mayor. I will now turn to 
Reverend Sparks for your testimony.
    Sir.
    [The prepared statement of Mr. Manchester follows:]

              Statement of The Honorable John Manchester, 
                    Mayor, Lewisburg, West Virginia

    Good morning.
    My name is John Manchester, and I am mayor of Lewisburg, West 
Virginia, a small city of 3700 people, a few miles from the southern 
end of the Monongahela National Forest in the southeastern part of the 
state. I am speaking in favor of House Bill 5151, The Wild Monongahela 
Act. I appreciate the opportunity to be with you today.
    As I am sure you have heard regularly from Congressman Rahall and 
the other members of the West Virginia Congressional delegation, West 
Virginia is a unique place with unique people. My city, Lewisburg, is a 
good example. Founded in 1782, we are one of the oldest towns in West 
Virginia and the county seat of Greenbrier County. Our lifeblood is 
tourism, and we have been careful to preserve our historic downtown 
which is thriving. Our vibrant downtown stands in marked contrast with 
many other downtowns throughout West Virginia and across the country 
which have not recognized the value of the asset that an historical 
downtown represents. It is something special, something in which we 
take pride, something that forms a strong foundation for our local 
economy, and something we can pass on to those who follow. As an 
elected official, I believe it is my charge to maintain assets 
entrusted to me and to pass them along in as good or better condition 
to my successors.
    I feel the same way about the wild areas of the Monongahela 
National Forest that would be protected under this legislation. The 
wilderness areas described in this bill are special places to my city, 
to West Virginia and to the rest of the nation. They are natural assets 
that should be valued and protected as they are--not only for the value 
they offer us today but for the even greater value they will have for 
future generations. Roadless areas are scarce in the eastern United 
States, and if we do not take steps now to recognize their value and 
protect them, I fear they will disappear, year after year in small 
increments until they no longer have real value as wild areas--areas 
where man truly is a visitor amidst the natural world and not the 
dominant feature.
    The scarcity of roadless, wild areas that would be protected in 
this bill creates specific value to communities like Lewisburg which 
serve as access points to them. Several months ago I had the pleasure 
of exploring one of the wild areas covered in this bill--the area known 
as Big Draft--with the Chairman of the House Natural Resources 
Committee, Congressman Rahall. Big Draft is fourteen miles from 
Lewisburg. The proposed Spice Run Wilderness Area is about 30 miles 
away.
    Lewisburg is a natural staging area for visitors and residents 
alike who seek out designated wilderness areas. Just as having a well 
preserved, historic downtown helps our local economy, so too does 
having designated wilderness areas at our doorstep. The added economic 
stimulus to our tourism based economy is one reason why both Lewisburg 
City Council and the Greenbrier County Convention and Visitors Bureau 
support additional wilderness areas in the Monongahela National Forest, 
especially those proposed for Greenbrier County, which currently has 
none, despite having nearly 108,000 acres of the national forest within 
the county.
    Lewisburg also supports the protection of Big Draft and Spice Run 
in particular because they are part of the headwaters of the Greenbrier 
River, the source of Lewisburg's water system, the largest water 
utility in Greenbrier County, providing top quality water to over 
10,000 people in our valley.
    Lewisburg is not alone in local government support for additional 
wilderness areas. The following cities and towns have passed 
resolutions in support of designating additional wilderness areas in 
the Mon--Montgomery, Morgantown, Nitro, Nutter Fork, Shepherdstown, 
Weston, Renick, White Hall, Grafton, and Mataoka--as well as the 
Fayette County Commission. I submit into the record Lewisburg's 
wilderness support resolution. The other resolutions are very similar.
    I think House Bill 5151, The Wild Monongahela Act, is a very good 
bill and a great start toward protecting many of the special places 
within the national forest in West Virginia, and I hope you will 
support it.
    Thank you.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
        STATEMENT OF REVEREND DENNIS SPARKS, EXECUTIVE DIRECTOR, 
               WEST VIRGINIA COUNCIL OF CHURCHES

    Rev. Sparks. Good morning, Mr. Chairman, Members of the 
Committee and Chairman Rahall. I am the Reverend Dennis Sparks, 
Executive Director of the West Virginia Council of Churches. It 
is a privilege for me today to testify in support of the Wild 
Monongahela Act, H.R. 5151, and offer in part a theological 
justification for the bill.
    The West Virginia Council of Churches is one of the oldest 
organizations in the state. Our mission is to make more visible 
the unity of the church, provide a Christian witness on public 
issues and engage in cooperative mission and service for all 
West Virginians. The Council of Churches currently includes 14 
denominations in the state whose membership rolls approach 
600,000.
    As an expression of our concern for the environment, the 
Council has endorsed the wilderness recommendations of the West 
Virginia Coalition. It is our belief that each of the 15 
special wild areas identified by the coalition ultimately 
deserves to be permanently protected as wilderness by Congress.
    In 2006, we expressed this support by cosponsoring the book 
God's Gift of the Wild and Wonderful Land: A Christian 
Declaration on Spiritual Values of West Virginia's Monongahela 
National Forest, the booklet that Congressman Rahall lifted up 
earlier. This declaration, which I would like to provide to the 
Subcommittee for the hearing record, described the many 
spiritual values that wilderness can provide and called for 
greater wild land protection for the forest.
    Some here today may wonder why our state's faith community 
cares about wilderness protection for the Monongahela National 
Forest. In fact, many of my fellow West Virginians have long 
found inspiration in this beautiful forest. As Bob Marshall 
noted in a 2007 column in the Charleston Gazette, a pastor 
tells of asking his congregation when have you felt closest to 
God, and reports they rarely answer during my sermons.
    Like them, many of us in West Virginia find some of our 
most profound spiritual experiences in the greatest cathedral 
of them all, in solitude beside still waters or in the deep 
forest lit by sunlight dappled through the forest canopy. Bob's 
article gives an eloquent testimony on behalf of wilderness.
    I request, also, that it be part of the hearing record. As 
I will explain, the Council of Churches feels that areas in 
H.R. 5151 should remain untouched and stand as permanently 
protected natural cathedrals. We view preserving such areas as 
a form of tithing, setting apart some of the natural bounty 
that God has given us as a wild sanctuary.
    We base this position on our shared Christian belief that: 
1] our wild forests are part of God's creation; and 2] 
wilderness, if protected, provides a number of important 
spiritual and natural beliefs; and 3] we have a spiritual 
responsibility for protecting our forests and wilderness 
resources on Earth.
    First, God's creation. As Psalm 24:1 proclaims, the Earth 
is the Lord's and the fullness thereof the world and all that 
dwell in it. In Genesis, God proclaimed the goodness of the 
trees and other plant life which God had created and in Romans 
says for since the creation of the world is eternal power and 
divine nature, invisible though they are, have been understood 
and seen through things he has made that they are without 
excuse.
    In our present world, trees and forests are not only 
crucial components of a healthy environment, they are living 
symbols of the many natural spiritual gifts that God has given 
us.
    Spiritual values in wilderness. Wilderness provides many 
spiritual gifts. God's gift of the wild and wonderful land 
explored these wild land faith benefits from a Christian 
perspective. Among its key findings the declaration noted that 
wilderness teaches humility, that mountains are big and we are 
small.
    Surrounded by wilderness, we experience God's immense 
creation as majestic, yet intricate, into its accountable 
details. Today, protected wild forests provide us that precious 
and ever more elusive opportunity to be still and know that I 
am God.
    Finally, stewardship. Before the flood, Noah protected at 
least two of every animal species. After the flood, God said to 
Noah, behold, I establish my covenant with you, and with your 
seed after you, and with every living creature that is with you 
of the birds, of the cattle and of every wild animal of the 
Earth with you.
    As we read the Bible, we see that our faith calls us to be 
good stewards of God's magnificent creation. Finally, we feel 
it is our opportunity and duty as people of faith to safeguard 
wilderness in the West Virginia mountains, the oldest mountains 
in all the world, and we support H.R. 5151 and hope to see it 
strengthened with additional protection for other critical 
areas that are part of the Wilderness Coalition's proposal. 
Thank you for this opportunity.
    Mr. Grijalva. Thank you, Reverend. Turning now to Mr. 
Price, AFL-CIO.
    Sir.
    [The prepared statement of Reverend Sparks follows:]

     Statement of The Reverend Dennis Sparks, Executive Director, 
                   West Virginia Council of Churches

    Chairman Grijalva and Members of the Subcommittee, I am the 
Reverend Dennis Sparks, Executive Director of the West Virginia Council 
of Churches. I am pleased to testify before you today in support of 
H.R. 5151, the ``Wild Monongahela: A National Legacy for West 
Virginia's Special Places.'' My task today is to offer a faith 
perspective and foundation for the establishment of the Wilderness 
classification.
    The West Virginia Council of Churches' mission ``is to make more 
visible the unity of Christ's church, provide a Christian witness on 
public issues, and engage in cooperative mission and service for all 
West Virginians.'' As one of the oldest institutions in the State of 
West Virginia, we trace our origins to 1880 and our roots to the 1820s. 
In the time between 1880 and the present, the work of a few volunteers 
has blossomed into a cooperative Christian mission and service for all 
West Virginians.
    The membership of the Council of Churches currently includes 14 
church denominations in the state, whose membership rolls approach 
600,000. Respecting the traditions of each denomination--while uniting 
to speak with one voice and to act with united hands--we carry the 
justice message of faith into the public arena. Over the years, the 
West Virginia Council of Churches has been active in areas of social 
justice, children's health, economic, environmental and statewide 
legislative issues, interfaith dialogue and cooperation, as well as 
service programs in disaster recovery. We are currently through our 
``Beyond the Yellow Ribbon'' program, organizing support for our 
military families.
    As an expression of our interest in and concern for the health of 
the environment in West Virginia, the Council acted in 2006 to endorse 
the Wilderness recommendations of the West Virginia Wilderness 
Coalition (WVWC). It is our belief that each of the 15 special wild 
areas identified by the WVWC ultimately deserves to be permanently 
protected by Congress for the benefit of current and future generations 
as part of the National Wilderness Preservation System.
    Our support of these Wilderness recommendations has taken many 
forms in recent years. We publicly co-sponsored the booklet and later 
the DVD, ``God's Gift of a Wild and Wonderful Land, A Christian 
Declaration on the Spiritual Values of West Virginia's Monongahela 
National Forest,'' which was released to the public in 2006. This 
document carefully outlined the many spiritual values and lessons that 
wilderness can provide. As Jesus often drew apart to wild places to 
pray, we recognize the continuing power and importance to the human 
spirit of our remaining wild lands. In recognition of these spiritual 
values, ``God's Gift of a Wild and Wonderful Land'' also contained a 
clear call by many of West Virginia's Christian faith leaders for 
greater care for creation and for the protection of additional 
wilderness in our beautiful state. For the Council of Churches this has 
been and still is an issue of justice that calls for a balance of the 
natural beauty of creation with the responsibility of human dominion 
over the earth.
    The Council of Churches has also expressed support for wilderness 
in correspondence to the Monongahela National Forest during its forest 
planning process and in recent statements in the West Virginia press. 
Today, as an additional response to our stewardship call to protect 
God's creation, I would like to express the support of the West 
Virginia Council of Churches for the ``Wild Monongahela'' legislation, 
H.R. 5151.
    Perhaps some here today are wondering why the West Virginia faith 
community would care about wilderness protection for the Monongahela 
National Forest. In fact, many of my West Virginia colleagues and 
fellow Christians have long found spiritual inspiration in our 
beautiful national forest. As co-founder of Christians for the 
Mountains, Bob Marshall, noted in a February, 2007 column in the 
Charleston Gazette:
        ``An Arizona pastor tells of asking his congregation, `When 
        have you felt closest to God?' and reports that they rarely 
        answer, `During your sermons.' Like them, many of us here in 
        West Virginia find some of our most profound spiritual 
        experiences in the greatest cathedral of them all--in solitude 
        beside the still waters or in a deep forest lit by sunlight 
        dappled through the forest canopy. Or, here in the Monongahela 
        National Forest, beside the not-so-still waters of a gloriously 
        wild, rushing mountain stream.''
    Bob Marshall's article provides an eloquent testimony on behalf of 
additional wilderness protection for West Virginia's wonderful wild 
lands. I have included it at the end of my written statement and 
request that it be made part of the official record of this hearing.
    The Council of Churches asks that the areas identified in H.R. 5151 
should be allowed to remain untouched by development and stand as 
permanently protected natural cathedrals. Preserving these special 
areas is a form of tithing, setting apart some of the natural bounty 
that the Creator has given us as a wild sanctuary and protecting it in 
its undefiled natural condition. We are convinced that only permanent, 
strong protection afforded by Wilderness designation can ensure that 
the solitude and closeness to God's creation in nature will still be 
available in West Virginia for all citizens of this great American land 
to enjoy. If these areas are not moved into permanent protective 
designations, the possibility for future disruption from logging 
operations, off-road vehicles and other uses will always be present.
    Our support for this legislation, and our underlying support for 
Wilderness protection, is based on our shared beliefs that 1) our 
forests and wild lands are part of God's creation, 2) Wilderness, if 
protected, provides a number of important spiritual and natural 
benefits, and 3) we have a stewardship responsibility for protecting 
our forests and wilderness resources on Earth.
God's Creation
    As Psalm 24:1 proclaims, ``The earth is the Lord's and the fullness 
thereof, the world and all that dwell in it.'' In the Biblical story of 
creation, trees are the emblem of the living earth and Adam and Eve 
first encountered creation through two trees--the tree of knowledge of 
good and evil and the tree of life. In Genesis (1:12), God proclaimed 
the goodness of trees and other plant life which he had created. You 
are invited to capture the moment: ``The earth brought forth 
vegetation: plants yielding seed of every kind, and trees of every kind 
bearing fruit with seed in it. And God saw that it was good.'' As 
Romans (1:20) explains, ``Ever since the creation of the world his 
eternal power and divine nature, invisible though they are, have been 
understood and seen through the things he has made.'' In our present 
world, as this passage from Romans reminds us that, trees are not only 
crucial components of a healthy environment, they are living symbols of 
the many good gifts that God has given us--including clean streams, 
fresh air, bountiful fish and wildlife habitats, and sources of 
spiritual inspiration.
Spiritual Values of Wilderness
    Upon reflection, we see that there are many spiritual values and 
lessons that can be gained in the Wilderness. ``God's Gift of a Wild 
and Wonderful Land'' explored the faith values provided by protected 
wilderness areas and explained why such areas are important from a 
Christian perspective. Among the many key aspects of wilderness, the 
declaration noted that:
    <bullet>  In wilderness we learn about God. When we leave the 
crowds of town and city and enter the quiet and peace of wild places, 
the deep questions of human life rise to the surface.
    <bullet>  Wilderness is God's gift of creation undefiled. Without 
wilderness, we lose a reminder of what creation is like in its pristine 
condition. The clean air, the cold water, the quiet of trees, the moist 
earth and everything in between help us to clarify our thinking so that 
we can open to God and the nature of creation.
    <bullet>  Wilderness teaches humility. The mountains are big and we 
are small. Surrounded by wildness, we experience God's immense creation 
as majestic yet intricate in its uncountable details.
    In centuries past, people of the Judeo-Christian heritage as well 
people of other ancient faiths had a strong understanding of the 
spiritual values to be found in the wilderness. In Hebrew tradition 
Moses lead the Israelites into the wilderness; from the Christian 
experience, Jesus went to the wilderness to prepare for his ministry. 
The saints went to the wilderness to find a deeper experience of God. 
For many of us today, protected Wilderness areas and other wild forests 
provide us that precious--and ever more elusive--opportunity to, ``Be 
still, and know that I am God.''
Stewardship
    Before the Flood, Noah and his family protected at least two of 
every animal species. After the Flood, God said to Noah, ``Behold, I 
establish my covenant with you, and with your seed after you, and with 
every living creature that is with you, of the birds, of the cattle, 
and of every wild animal of the earth with you'' (Genesis 9:9). As we 
read these and other biblical passages, we see that our religious 
heritage calls us to be good stewards of the Creator's magnificent 
creation.
    With respect to the protection of our forests and our state's 
environment, we see that the choices originally presented by two trees 
to Adam and Eve are still choices before us today. It is through our 
trees of forest that we will choose life and may perhaps know the 
difference between good and evil. We can choose to honor the Creator 
and respect the creation and the integrity of the good earth, or we can 
follow the path of exploitation and loss. As the Reverend Billy Graham 
has said, ``It is not right for us to destroy the world that God has 
given us...We Christians have a responsibility to take the lead in the 
caring for the earth.''
Conclusion
    The words of the Psalmist (1:3) compared the pursuit of happiness 
as the ``trees planted by streams of living water, which yield their 
fruit in its season, and their leaves do not wither. In all that they 
do they prosper.'' In short, we believe that it is both our ecological 
and economic opportunity and moral duty as people of faith to safeguard 
our Wilderness resources and forest wild lands. This safeguard relates 
to a now famous line found in President John F. Kennedy's inaugural 
address: ``God's work must truly be our own.'' As one author stated in 
response to the President, ``More importantly, in an era of heightened 
human impact upon the entire planet, our own work must truly be God's'' 
(Earth Community Earth Ethics, Larry L. Rasmussen, 1996, page 293).
    As an area of federal land belonging to all Americans, the 
Monongahela National Forest can uniquely provide opportunities for 
reflection and inspiration that are becoming ever scarcer in our 
rapidly modernizing and developing world. We believe that carefully 
protecting this wonderful national forest and its Wilderness-quality 
lands not only has a sound biblical foundation, but is also the best 
and most practical course of action for safeguarding the beauty, 
abundance, and ecological health of the world which we will pass along 
to our children's children.
    We thank the Chairman and other members of the West Virginia 
delegation for their good efforts and share in the West Virginia 
Wilderness Coalition's hope to see the bill strengthened before it is 
passed with additional protection for other critical areas that are 
part of the West Virginia Wilderness Coalition's proposal. Thank you 
for considering our testimony today.
                         the charleston gazette
                  Wilderness: God's greatest cathedral
                             2 / 18 / 2007
    However much time you and I spend in our churches, my guess is that 
like me, you find that a particularly fitting place to commune with 
your God is in His own wilderness.
    An Arizona pastor tells of asking his congregation, ``When have you 
felt closest to God?'' and reports that they rarely answer, ``During 
your sermons.'' Like them, many of us here in West Virginia find some 
of our most profound spiritual experiences in the greatest cathedral of 
them all--in solitude beside the still waters or in a deep forest lit 
by sunlight dappled through the forest canopy. Or, here in the 
Monongahela National Forest, beside the not-so-still waters of a 
gloriously wild, rushing mountain stream such as Seneca Creek.
    As a Christian who reads the Bible regularly, I know that the 
greatest prophets sought the wildest places in nature for their most 
intense spiritual renewal. Moses convened with God on Sinai for ``forty 
days and forty nights'' (Exodus 24:18). And Mark tells us that Jesus 
sojourned in the wilderness for ``forty days'' (Mark 1:13). In short, 
wilderness is part of our Biblical heritage.
    The Lord, I believe, did not place us in this earthly garden to see 
us despoil every part of it, or to turn every acre to our immediate 
needs for food, fiber and money. There is a deep inborn reason that our 
hearts respond with a joyous leap to great vistas of unspoiled nature. 
His Creation as He created it.
    This is why I am working through my organization, Christians for 
the Mountains, and religious leaders in our state, including the West 
Virginia Council of Churches, to encourage our Members of Congress to 
protect additional areas of wilderness. Thanks to the visionary and 
bipartisan Wilderness Act that Congress passed in 1964, we have the 
means through our democratic process to see that a reasonable sample of 
the wilderness solitudes of the Monongahela National Forest will be 
preserved for all time to serve many values, not least being our 
spiritual needs.
    For us, this is an act of humility. Surely it would be immoral for 
our generation to deny future generations of West Virginians what the 
Wilderness Act terms ``the benefits of an enduring resource of 
wilderness.'' Our obligation to them, and to our Creator, runs deeper. 
Preserving wilderness areas such as Seneca Creek, Spice Run and the 
Dolly Sods Expansion, is a form of tithing, setting apart some of the 
natural bounty given to us as a wild sanctuary, protecting it in its 
undefiled natural condition for the benefit of generations unborn.
    So, we ask our elected officials to take a political action in a 
nonpartisan way. We ask them to preserve more of the wilderness of the 
Mon. Far into the future our descendents in these mountains will lift 
their eyes unto the hills. They will need and treasure these quiet 
reserves of God's wild solitudes so much more in their crowded world 
than we can even imagine.
    The great Republican Teddy Roosevelt spoke of our obligation to the 
future, railing against ``the shortsighted men who in their greed and 
selfishness will, if permitted, rob our country of half its charm by 
their reckless extermination of all useful and beautiful wild things.''
    The ``greatest good for the greatest number,'' Roosevelt reminds 
us, ``applies to the number within the womb of time, compared to which 
those now alive form but an insignificant fraction. Our duty to the 
whole, including the unborn generations, bids us restrain'' ourselves 
``from wasting the heritage of these unborn generations.'' I personally 
want to know that my four grandchildren, and their children, will be 
afforded the same opportunity to experience the awe inspiring wild 
places we seek to protect.
    Today, you and I bear this moral responsibility to those within the 
womb of time. Yes, we could develop the remaining unprotected wild 
places in our national forest if we chose to; that decision is in our 
hands. But in a very real way, all those yet unborn are watching us, 
praying (as writer Terry Tempest Williams so eloquently puts it) ``for 
us to see beyond our own time. They are kneeling with clasped hands 
hoping that we might act with restraint.''
    We humans live only by grace, and Williams reminds us that it is 
within our legislative powers--held by our elected representatives--to 
take care that a good, big, generous sample of God's wilderness lives 
on as well. Wilderness areas such as Cranberry Glades and Dolly Sods 
that Congress has already protected in this way, offer places to play 
in, to be sure, for hunters, fishermen, campers and hikers, young 
families, and sturdy mountaineers who remain young at heart.
    And, for many of us, wilderness offers the very best places in 
which to pray.
    [Bob Marshall, of Kenna, is a native West Virginian, avid fly 
fisherman, hunter and a practicing veterinarian. He co-founded 
Christians for the Mountains, and helps lead the Religious Campaign for 
Wilderness. For information about citizen wilderness proposals, visit 
www.wvwild.org.]
                                 ______
                                 

         STATEMENT OF MIKE PRICE, WEST VIRGINIA AFL-CIO

    Mr. Price. Good morning, Mr. Chairman, Members of the 
Committee. I would like to thank you, Mr. Rahall, for 
introducing this bill. I am Mike Price of the West Virginia 
AFL-CIO. I am a member of the United Steel Workers Local 889. I 
have a resolution from the AFL-CIO in support of this that I 
would like to put in the record and also one from my local 
union.
    On October 2, 2007, at the West Virginia AFL-CIO's 
Constitutional Convention in Wheeling, West Virginia, over 180 
delegates representing different unions unanimously voted to 
adopt a resolution to secure permanent protection for the 
wilderness forest areas, as proposed by the West Virginia 
Wilderness Coalition. This included Seneca Creek and the East 
Fork of the Greenbrier.
    We did so believing that wilderness designation will 
protect one of our state's most valued assets, scenic beauty. 
These special wild places encompass the development of rural 
communities as people are attracted to or stay in places that 
are clean, beautiful and where they have ample opportunity to 
connect with nature.
    These wilderness areas provide outdoor recreation, such as 
hunting, fishing, which improves the quality of life of West 
Virginians. Wildlife management to restore native wildlife 
populations can continue to occur in wilderness so long as it 
maintains the wilderness character of the area. Wilderness 
designation is the best way to protective sensitive wildlife 
species from development pressures.
    Wilderness provides priceless clean water, clean air and a 
healthy environment for neighboring communities. Watershed 
protection results in protection of clean drinking water, as 
well as decreased potential for flooding downstream. West 
Virginia's more than 15 million acres are nearly 80 percent 
forested.
    Ninety-eight percent of this forest land is classified as 
timberland or commercial forest land with 98 percent of this 
owned by private individuals or corporations. Wilderness 
designation would have no impact on these private lands that 
produce over 95 percent of West Virginia's commercial harvested 
timber.
    The wilderness proposal put forth would affect only five-
tenths of a percent of the state's commercial timberland, thus 
preserving West Virginia's timber-based economy while providing 
the enhancement of a broad array of other forest areas. After 
all, the Monongahela National Forest slogan is land of many 
uses.
    Protecting wilderness helps diversify and stabilize 
economies by attracting and retaining businesses, residents and 
a local workforce in addition to generating travel and tourism, 
one of the fastest growing sections of West Virginia's economy.
    The AFL-CIO recognizes that wilderness designation will 
attract business, creating many job opportunities. Unions have 
always supported legislation which creates jobs and protect a 
healthy environment. I am a United Steel Worker affiliated with 
the AFL-CIO and also an outings lead with the Sierra Club.
    United Steel Workers has a blue/green alliance with the 
Sierra Club which works together on environmental issues. 
Unions recognize the importance of protecting our special 
places, the environment and creating green-based job 
opportunities. As an outings lead for the Sierra Club, security 
and protection for these special places in Monongahela creates 
endless opportunities for leading trips into wild places in our 
beautiful state.
    The designation of wilderness status to the areas proposed 
in Monongahela in no way hurts the economy in West Virginia. It 
will enhance the economy and quality of life and ensure that 
future generations have unexplored wilderness to enjoy. To 
speak specifically about one particular area of importance 
included in the Wild Monongahela Act, I will quote Elizabeth 
Little of Hillsboro, West Virginian who has likely spent more 
time in the area than anyone else alive.
    ``In the summer of 1995, I spent the day with a Forest 
Service team and a group of concerned citizens touring the 
Little Fork area, part of what is now the Cranberry Expansion. 
This was occasioned by the Forest Service announcement that 
they were preparing a management plan for the area.''
    ``On that field trip and in an ensuing letter, I pointed 
out to the Forest Service that the Cranberry wilderness wasn't 
big enough. Previously, a Forest Service ranger from the Gauley 
District and I had walked the Cranberry and frequented several 
hunters and camps along the way. This means the wilderness 
provides a minimum range for large wildlife that is intolerant 
to disturbance.''
    ``Since the Cranberry is already the largest wilderness in 
the Monon and is bounded by roads on all sides, the Cranberry 
Expansion is the only possibility for variety and a larger 
undisturbed territory. The elevation in the central ridge in 
the Cranberry Expansion is over 4,000 feet and was originally 
dominated ridge forest, which the Forest Service has been 
actively working to regenerate.''
    ``The Cranberry Expansion is not a showy attraction for 
tourists. There are no specular views or thunderous waterfalls. 
It is a place of deep coves, forest folded with mountain 
streams. It is a place of abiding peace and quiet, of psychic 
renewal for humans, but mostly a place of trees that will only 
become magnificent with time.''
    So we would recommend that you all pass this. We thank the 
Committee and the Chair, and especially you, Representative 
Rahall, for introducing this bill. Thank you.
    Mr. Grijalva. Thank you, Mr. Price. Now, Mr. Bittner, 
Mountaineer Chapter of Trout Unlimited. Your testimony, sir.
    [The prepared statement of Mr. Price follows:]

     Statement of Michael Price, President, USW Local 8-89, AFL-CIO

    On October 2, 2007 at the West Virginia AFL-CIO's Constitutional 
Convention in Wheeling, WV over one hundred eighty delegates 
representing many different unions unanimously voted to adopt a 
resolution to ``Secure Permanent Protection For West Virginia's 
Wilderness Forest Areas'' as proposed by the West Virginia Wilderness 
Coalition. This included Seneca Creek, all of Roaring Plains and the 
East Fork of the Greenbrier in addition to area in H.R. 5151.
    The Convention delegates took this action to support Wilderness 
legislation believing that protecting one of our states most valued 
assets, its scenic beauty, will help enable the development of rural 
communities.
    People are attracted to, and businesses want to locate or stay in, 
places that offer a high quality of life, are clean, beautiful and 
where there are ample opportunity to connect with nature.
    These Wilderness areas provide outdoor recreation such as hunting, 
fishing and hiking which improves the quality of life for West 
Virginians.
    Wildlife management to restore native wildlife populations can 
continue to occur in wilderness areas so long as it maintains the 
wilderness character of the area. Wilderness designation is the best 
way to protect sensitive wildlife species from development pressures.
    Wilderness protects watersheds, provides clean air, and provides a 
healthy environment for neighboring communities. Watershed protection 
results in protection of clean drinking water sources and the lack of 
disturbance decreases potential for flooding downstream.
    West Virginia's more than fifteen million acres are nearly 80% 
forested. 98% of this forest land is classified as timberland or 
``commercial forest land.'' 98% of these commercial forest lands are 
owned by private individuals or corporations. Wilderness designation 
would have no impact on these private lands that produce over 95% of 
West Virginia's commercially harvested timber. The wilderness proposal 
put forth would affect only 0.5% of the state's commercial timberland, 
thus preserving West Virginia's timber-based economy while providing 
for the enhancement of a broad array of other forest uses. After all 
the Monongahela National Forest's slogan is ``Land of Many Uses.''
    Protecting wilderness helps diversify and stabilize economies by 
attracting and retaining business, residents and a local workforce in 
addition to generating travel and tourism, one of the fastest growing 
sections of West Virginia's economy. The AFL-CIO recognizes that 
wilderness designation will attract businesses creating many job 
opportunities now and into the future. Union's have always supported 
legislation which creates jobs and protects the health and a healthy 
environment.
    I am a United Steel Worker member affiliated with the AFL-CIO and I 
am also an Outings Leader with the Sierra Club. The USW has a ``Blue/ 
Green Alliance'' with the Sierra Club which works together on 
environmental issues.
    Union's recognize the importance of protecting our special places, 
the environment, and creating ``green based job opportunities.'' As a 
Sierra Club Outings Leader, having protected special places in the 
Monongahela creates endless opportunities for me to share our state's 
beautiful wild places with others.
    The designation of wilderness to the areas proposed in the Wild 
Monongahela Act will enhance the economy of West Virginia and the 
quality of life for West Virginians. It will ensure that future 
generations have unspoiled wilderness to enjoy as we do today.
    To speak specifically about one particular area of importance 
included in the Wild Monongahela Act, I'll quote Elizabeth Little of 
Hillsboro, WV who has likely spent more time in this area than any one 
else alive:
    'In the summer of 1995, I spent the day with a Forest Service team 
and a group of concerned citizens touring the Little Fork Area, part of 
what is now the Cranberry Expansion. This was occasioned by the Forest 
Service announcement that they were preparing a management plan for the 
area.
    On that field trip and in an ensuing letter, I pointed out to the 
Forest Service that the adjacent Cranberry Wilderness wasn't big 
enough.
    Previously, a Forest Service Ranger from the Gauley District and I 
had walked across the Cranberry at a long oblique angle in only six 
hours, even though we stopped frequently to converse with several 
hunters in camps along the way. This means the existing Wilderness 
provides a minimal range for large wildlife that is intolerant of 
disturbance. Since the Cranberry is already the largest Wilderness in 
the Mon and is bounded by roads on all other sides, the Cranberry 
Expansion is the only possibility for providing a larger undisturbed 
territory.
    Apparently they heard me. When I phoned the next year to find out 
how their planning was going, the team leader informed me that they had 
tabled the planning because of the wilderness issues raised; and then, 
in the recent Forest Plan, the Cranberry Expansion was formally 
recommended by the Forest Service for Wilderness designation.
    There may have been additional things to influence their 
recommendation. The elevation of the central ridge in the Cranberry 
Expansion is over 4000 feet and was originally dominated by red spruce 
forest, which the Forest Service has been actively working to 
regenerate. During the 1995 field trip we learned that the discovery of 
threatened and endangered species would change the location of a 
proposed road and cause logging in the area to be cancelled. Studies on 
the location of northern flying squirrels would continue, and the 
presence of goshawk nests indicated that they were returning. With this 
uncertainty about where a road could be built, and the fact that the 
Little Fork area is at ``the end of the road'' because it is next to 
the Cranberry Wilderness, the investment of miles of new road might not 
make financial or ecological sense.
    The Cranberry Expansion is not a showy attraction for tourist 
consumption. There are no spectacular views or thunderous waterfalls. 
It is a place of deep cove forest folded with mountain streams. It is 
so shady that the automatic flash goes off when you try to take a 
picture. It is so moist that even on a sunny summer day your rear gets 
wet if you sit on the ground.
    It is a place of abiding peace and quiet, of psychic renewal for 
humans, but mostly, a place of trees that will only become more 
magnificent with time.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILBLE IN TIFF FORMAT]
                                 
       STATEMENT OF BOB BITTNER, JR., MOUNTAINEER CHAPTER OF TROUT 
                                UNLIMITED

    Mr. Bittner. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is Robert Bittner, I am a member of the 
Board of Directors of Mountaineer Chapter Trout Unlimited. The 
mission of Trout Unlimited, both nationally and locally, is to 
conserve, protect and restore our cold water fisheries and 
their watersheds.
    The native and wild trout in these ecosystems represent not 
only an unsurpassed recreational opportunity but also connect 
us to the natural heritage of our country. For those of us 
lucky enough to live in West Virginia, the embodiment of our 
heritage is the Eastern Brook Trout. These beautiful, speckled 
trout require intact, undisturbed watersheds to flourish.
    Because of this, Mountaineer Chapter Trout Unlimited wholly 
supports the Wild Monongahela: A National Legacy for West 
Virginia's Special Places legislation. The Eastern Brook Trout 
is the only native trout for the eastern United States.
    This stunning fish, with its flanks splashed in red and 
blue spots, creamy white underbelly washed with orange, 
pectoral fins striped white, black and orange and its veined 
dark olive back, holds a special place in the hearts of West 
Virginia's anglers and residents.
    Stranded in our mountain streams and rivers after the 
retreat of the last glaciation, the trout of the springs, 
Salvelinus Fontinalis, symbolizes the wildness and beauty that 
was our nation before European settlement. Just like our 
special places, the hollows, ridges and cricks of West 
Virginia, the Brook Trout faces threats from development, poor 
logging and agricultural practices and energy production.
    Federal wilderness designation permanently protects 
portions of the national trust. It allows these forests and 
watersheds to heal and mature. An intact and undisturbed forest 
is one of the best management tools for protecting Brook Trout. 
Forest floors, free of the compaction of roads and logging 
trails, absorb, cool and slowly release rain water to streams.
    They help minimize the flooding and subsequent soil erosion 
of extreme precipitation events. This keeps the stream bed 
gravels clean and free of siltation, which allows the Brook 
Trout to successfully reproduce. The mature forest canopy 
provides vital thermal protection, shading our streams and 
rivers from an increasingly warming climate.
    Warming waters above 68 degrees Fahrenheit do not contain 
enough oxygen for the trout and the insects, crustaceans and 
forage fishes upon which they feed. Federal wilderness 
designation will also give the included streams a Tier 3 
protection level under the antidegredation rule of the Federal 
Clean Water Act.
    This is the highest level of water quality protection and 
provides citizens and government officials with an important 
tool to safeguard the sources of much of our drinking water. 
Maintaining high water quality in the headwaters of many of our 
larger watersheds may provide flexibility in the regulation of 
downstream nonFederal lands development and agricultural 
production.
    This may become invaluable for residents within the 
Chesapeake Bay regulatory watershed. Wilderness is a management 
designation that allows fisheries biologists many options to 
monitor and improve the health of Brook Trout populations. The 
reestablishment of native species is a primary goal in 
wilderness. Creel and size limits and their effect on 
population dynamics can still be managed.
    The opportunity to fully study populations and their 
response to environmental changes is unsurpassed in a 
wilderness area. Many other states, most notably Montana and 
Idaho, constantly monitor and manage their native fish 
populations within wilderness areas and use this data as a 
baseline for work outside of wilderness areas.
    Wilderness also allows for the protection of native fish 
from invasive, nonnative species. The protection of native 
Brook Trout from introduced nonnative trout species is becoming 
an important part of fisheries management. H.R. 5151, the Wild 
Monongahela: A National Legacy for West Virginia's Special 
Places, will be a large and first step toward conserving and 
protecting the Eastern Brook Trout and their watersheds in the 
21st Century.
    Mountaineer Chapter Trout Unlimited supports and encourages 
its passage by Congress and its approval by the President. The 
membership of Mountaineer Chapter Trout Unlimited would also 
urge the Congress to add two of the finest limestone karst 
geology Brook Trout watersheds in West Virginia to the bill.
    Seneca Creek and its watershed, listed by Trout Unlimited 
National as one of America's top 100 hundred streams, as well 
as the East Fork of the Greenbrier River, both support wild 
native Brook Trout. These two areas are overdue for the 
protection Congress can provide with wilderness designation.
    I would like to take this opportunity to also express my 
personal support for the Wild Mon legislation. I am a resident 
and business owner from Pendleton County, West Virginia. I hold 
a Bachelor of Science degree in environmental sciences with a 
major in forest and land use management from Stockton State 
College in New Jersey.
    My business is related to the timber industry. Robert 
Bittern Cabinetmaker is a custom design, build proprietorship 
specializing in furniture and architectural millwork. Supplies 
of quality wood are the lifeblood of my craft. Given that more 
than 97 percent of the state's timber harvest comes from 
private land, I know that the Wild Mon legislation will not 
adversely affect my business.
    However, keeping the image of West Virginia as wild and 
wonderful will benefit my business. My disappointment in the 
bill is that it does not yet include the crown jewel of West 
Virginia's native trout streams, Seneca Creek in Pendleton 
County. I hope that Seneca will become part of the Wild Mon Act 
before the President signs the bill.
    I thank you for your time and your interest.
    Mr. Grijalva. Thank you very much. The final panelist, Mr. 
Gil Willis, Elk River Inn & Restaurant. Sir, your testimony.
    [The prepared statement of Mr. Bittner follows:]

       Statement of Robert Bittner, Member, Board of Directors, 
                  Mountaineer Chapter Trout Unlimited

    The mission of Trout Unlimited, both nationally and locally is to 
conserve, protect and restore our cold water fisheries and their 
watersheds. The native and wild trout in these ecosystems represent not 
only an unsurpassed recreational opportunity but also connect us to the 
natural heritage of our country. For those of us lucky enough to live 
in West Virginia, the embodiment of our heritage is the Eastern Brook 
Trout. These beautiful speckled trout require intact, undisturbed 
watersheds to flourish. And because of this, Mountaineer Chapter Trout 
Unlimited wholly supports the Wild Monongahela: a National Legacy for 
West Virginia's Special Places legislation.
    The Eastern Brook Trout is the only native trout for the eastern 
United States. This stunning fish with its flanks splashed in red and 
blue spots, creamy white underbelly washed with orange, pectoral fins 
striped white black and orange and its veined dark olive back holds a 
special place in the hearts of West Virginia's anglers and residents. 
Stranded in our mountain streams and rivers after the retreat of the 
last glaciation, the ``trout of the springs'' Salvelinus Fontinalis 
symbolizes the wildness and beauty that was our nation before European 
settlement. Just like our special places the hollows, ridges and cricks 
of West Virginia, the Brook Trout faces threats from development, poor 
logging and agricultural practices and energy production.
    Federal wilderness designation permanently protects portions of the 
national trust. It allows these forests and watersheds to heal and 
mature. An intact and undisturbed forest is one of the best management 
tools for protecting Brook Trout. Forest floors, free of the compaction 
of roads and logging trails absorb, cool and slowly release rainwater 
to streams. They help minimize the flooding and subsequent soil erosion 
of extreme precipitation events. This keeps the stream bed gravels 
clean and free of siltation, which allows the Brook Trout to 
successfully reproduce. The mature forest canopy provides vital thermal 
protection, shading our streams and rivers from an increasingly warming 
climate. Warming waters, above sixty-eight degrees Fahrenheit, do not 
contain enough oxygen for the trout and the insects, crustaceans and 
forage fishes upon which they feed.
    Federal wilderness designation will also give the included streams 
a Tier 3 protection level under the anti-degradation rule of the 
Federal Clean Water Act. This is the highest level of water quality 
protection and provides citizens and government officials with an 
important tool to safeguard the sources of much of our drinking water. 
Maintaining high water quality in the headwaters of many of our larger 
watersheds may provide flexibility in the regulation of downstream 
(non-federal lands) development and agricultural production. This may 
become invaluable for residents within the Chesapeake Bay regulatory 
watershed.
    Wilderness is a management designation that allows fisheries 
biologists many options to monitor and improve the health of Brook 
Trout populations. The re-establishment of native species is a primary 
goal in wilderness. Creel and size limits and their effect on 
population dynamics can still be managed. The opportunity to fully 
study populations and their response to environmental changes is 
unsurpassed in a wilderness area. Many other states, most notably 
Montana and Idaho, constantly monitor and manage their native fish 
populations within wilderness areas and use this data as a baseline for 
work outside of wilderness areas. Wilderness also allows for the 
protection of native fish from invasive, non-native species. The 
protection of native Brook Trout from introduced non-native trout 
species is becoming an important part of fisheries management.
    H.R. 5151--The Wild Monongahela: A Natural Legacy for West 
Virginia's Special Places will be a large and first step towards 
conserving and protecting the Eastern Brook Trout and their watersheds 
in the twenty-first century. Mountaineer Chapter Trout Unlimited 
supports and encourages its passage by Congress and its approval by the 
President. The membership of Mountaineer Chapter Trout Unlimited would 
also urge the Congress to add two of the finest limestone karst geology 
Brook Trout watersheds in West Virginia to the bill. Seneca Creek and 
its watershed, listed by Trout Unlimited National as one of Americas 
top one hundred streams, as well as the East Fork of the Greenbrier 
River both support wild native Brook Trout. These two areas are overdue 
for the protection Congress can provide with Wilderness designation.
    I would like to take this opportunity to express my personal 
support for the Wild Monongahela (Wild Mon) legislation. I am a 
resident and business owner from Pendleton County, West Virginia. I 
hold a Bachelor of Science Degree in Environmental Sciences with a 
major in Forest and Land Use Management from Stockton State College in 
NJ. My business is related to the timber industry; Robert Bittner 
Cabinetmaker is a custom design/build proprietorship specializing in 
furniture and architectural millwork. Supplies of quality wood are the 
lifeblood of my craft. Given that more than ninety-seven percent of the 
state's timber harvest comes from private land, I know that the Wild 
Mon legislation will not adversely affect my business; however, keeping 
the image of West Virginia as wild and wonderful will benefit my 
business. My disappointment in the bill is that it does not yet include 
the crown jewel of West Virginia's native trout streams, Seneca Creek, 
in Pendleton County. I hope that Seneca will be in the Wild Mon act 
before the President signs the bill.
    Thank you for your time and interest. As a citizen, I appreciate 
the opportunity to express my personal support and the endorsement of 
Mountaineer Chapter Trout Unlimited for this important legislation.
                                 ______
                                 

STATEMENT OF GIL WILLIS, ELK RIVER INN & RESTAURANT, SLATYFORK, 
                         WEST VIRGINIA

    Mr. Willis. Good morning, and thank you for having me. I 
would like to thank the Subcommittee Chairman and my 
Congressman, Nick Rahall, and Members of the Committee for 
allowing me to speak today in support of the Wild Monongahela 
Act. This is an historic piece of legislation that will help 
ensure the future of West Virginia's greatest national 
treasure, our national forest.
    Let me begin my comments by commending Congressman Rahall 
and the entire West Virginia congressional delegation for their 
commitment to working and listening to the people of West 
Virginia. This bill truly reflects the thoughts and concerns of 
residents of the Mountain State who appreciate our natural 
forests and the wild areas that are included in these lands.
    Our congressional team has developed a proposal that 
protects our forests and meets the needs of the forest's many 
users. I especially appreciated the open process Congressman 
Rahall and his staff has had and the entire delegation's 
willingness to meet with me and other concerned West Virginians 
and their desire to work with all of us to develop a proposal 
that truly represents West Virginians and the will to ensure 
the future of our state's forests for generations to come.
    As a member of West Virginia's business community whose 
business is dependent on our state's wild and wonderful 
landscape, I am very supportive of efforts to ensure the wild 
future of our forests. My wife and I own and operate Elk River 
Inn Restaurant Touring Center which is open year round as a 
skiing, fly fishing, cycling and hiking resort.
    We have been at the forefront of the outdoor industry since 
its infancy in West Virginia over 30 years ago. Our company 
currently employs over 20 full and part-time staff. I also for 
the last 15 years have sat on the Pocahontas County Convention 
and Visitors Bureau Board of Directors. Our remote mountain 
setting in Pocahontas County relies on quality wild outdoor 
places to survive.
    All of the counties which the new wilderness areas are 
located in will benefit both socially and economically from 
this bill and the high quality of visitors that they will 
attract. West Virginia's mountain region is the last best place 
in the mid-Atlantic. This of course is a marketing term which 
hits close to the heart.
    Wilderness designation for those areas included in the Wild 
Monongahela Act will provide unparalleled primitive and 
traditional outdoor recreation opportunities, such as hunting, 
fishing, hiking, horseback riding, camping, back country 
skiing, snowshoeing and much more. These areas and the 
activities not only keep us competitive in regional and 
national markets but also provide a much needed and affordable 
outdoor experience for our local residents.
    Protecting our rivers and our forests with wilderness 
designation is an investment in West Virginia's future. The 
state's abundance of God given natural resources have been 
providing coal, natural gas, wood products and chemical 
ingredients to the Nation and the world for almost 200 years. 
Our economic landscape has changed, and our natural resources 
will not last forever.
    The northern mountains which fall into the border of the 
Monongahela National Forest are very important to the future as 
a region. We have a real connection to our mountains and our 
forests and have a responsibility to leave these special places 
as clean and pristine to our children and our children's 
children.
    Pocahontas County is referred to as the birthplace of 
rivers. There are eight rivers that begin in Pocahontas County. 
Much of the clean water for the mid-Atlantic originates from 
our county and bordering counties. This renewable resource 
cannot be taken for granted.
    I would like to see in the future even more Federal 
protection for our valuable and vanishing clean water resources 
in the great State of West Virginia, which affects the whole 
mid-Atlantic region's future and health. While I wholeheartedly 
support the Wild Monongahela Act I am concerned about a number 
of special areas that are not included in the legislation.
    Specifically, I would like to see the delegation amend this 
legislation to include Seneca Creek, Roaring Plains and East 
Fork of Greenbrier. Like the other special places included in 
the legislation, these areas represent some of the last truly 
wild places in the east and they deserve Congress' protection.
    Chairman and Members of the Subcommittee, thank you once 
again for allowing me to voice my support for this historic 
legislation. West Virginians have a strong connection and 
desire for protecting our one of a kind forest, and the 
legislation goes a long way toward helping us live up to this 
responsibility. Thank you.
    [The prepared statement of Mr. Willis follows:]

          Statement of Gil Willis, Owner and Operator of the 
         Elk River Touring Center/Elk River Inn and Restaurant

    I would like to thank Subcommittee Chairman Grijalva and my 
Congressman, Nick Rahall and members of the committee for allowing me 
to speak today in support for the Wild Monongahela Act. This is an 
historic piece of legislation that will help insure the future of West 
Virginia's greatest natural treasure--our National Forest.
    Let me begin my comments by commending Congressman Rahall and the 
entire West Virginia congressional delegation for their commitment to 
working and listening to the people of West Virginia. This bill truly 
reflects the thoughts and concerns of residents of the Mountain State 
who appreciate our national forests and the wild areas that are 
included in those lands. Our Congressional team has developed a 
proposal that protects our forest and meets the needs of the forest's 
many users.
    I especially appreciated the open process that Congressman Rahall 
has had and the entire delegation's willingness to meet with me and 
other concerned West Virginians and their desire to work with all of us 
to develop a proposal that truly represents West Virginians and will 
ensure the future of our state's forests for generations to come.
Recreation/Business:
    As a member of the West Virginia business community whose business 
is dependant on our state's wild and wonderful landscape, I am very 
supportive of efforts to ensure the wild future of our forests. My wife 
and I own and operate Elk River Inn, Restaurant & Touring Center, which 
is open year round as a skiing, fly fishing, cycling and hiking resort. 
We have been at the forefront of the outdoor industry since its infancy 
in West Virginia for over 30 years. Our company currently employees 
over 20 full and part time staff. I also for the last 15 years have sat 
on the Pocahontas County Convention and Visitors Bureau Board of 
Directors. Our remote mountain setting in Pocahontas County relies on 
quality wild outdoors places. All of the counties which the new 
wilderness areas are located in will benefit both socially and 
economically from this bill and the high quality of the visitors that 
they will attract. West Virginia's mountain region is ``the last best 
place'' in the mid Atlantic. This of course is a marketing term which 
hits close to the heart.
    Wilderness designation for these areas included in the Wild 
Monongahela Act will provide unparalleled primitive and traditional 
outdoor recreation opportunities, such as hunting, fishing, hiking, 
horseback riding, camping, backcountry skiing and snowshoeing and much 
more. These areas and the activities not only keep us competitive in 
regional and national markets but also provide a much-needed and 
affordable outdoor experience for our local residents.
Environmental/future generations:
    Protecting our rivers and our forests with wilderness designation 
is an investment in West Virginia's future. The state's abundance of 
God-given natural resources have been providing coal, natural gas, wood 
products and chemical ingredients to the nation and world for almost 
200 years. Our economic landscape has changed, and our natural 
resources will not last forever. The northern mountains which fall into 
and border of the Monongahela National forest are very important to our 
future as a region. We have a real connection to our mountains and 
forests and have a responsibility to leave these special places as a 
clean and pristine environment to our children and our children's 
children.
    Pocahontas County is referred to as the ``Birthplace of Rivers''. 
Much of the clean water for the Mid-Atlantic originates from our 
county. This renewable resource cannot be taken for granted. I would 
like to see in the future even more federal protection for our valuable 
and vanishing clean water resources in the great State of West Virginia 
which affects the whole Mid-Atlantic region's future and health.
Specific places included in the bill
    Cranberry Expansion--connected ecologically and recreationally to 
the existing wilderness with a network of hiking trails that feed into 
it. It also would protect the scenic backdrop for the world class fly 
fishing along the Cranberry River that borders the area.
    The Big Draft Area--would protect wilderness in the iconic 
Greenbrier River Valley, where none exists currently. Big Draft is home 
to excellent trout and bass fishing as well as an excellent whitewater 
run that would be our state's first whitewater trip in a designated 
wilderness
    The Spice Run Area--a place containing deep dark forest and 
wonderful mystique. One of the wildest places in our wild and wonderful 
state that has been a prime spot for hunting and native brook trout 
angling.
    Areas left out of the proposal--we'll have to see what the 
situation is with this
    While I wholeheartedly support the Wild Monongahela Act I am 
concerned about a number of special areas that are not included in the 
legislation. Specifically, I would like to see the delegation amend 
this legislation to include Seneca Creek, Roaring Plains and East Fork 
of the Greenbrier. Like the others special places included in the 
legislation, these areas represent some of the last, truly wild places 
in the east and they deserve protection. As I have mentioned I am 
deeply concerned about our states water quality and Seneca Creek and 
East Fork of the Greenbrier River.
Conclusion:
    Chairman Grijalva and members of the subcommittee, thank you once 
again for allowing me to voice my support for this historic 
legislation. West Virginian's have a strong connection and desire for 
protecting our one of a kind forests and this legislation goes a long 
way towards helping us live up to this responsibility.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Willis, and all our panelists, 
thank you very much. As I indicated to the first panelist, any 
testimony or additional material that you have will also be 
included as part of the record. Thank you.
    Mr. Mayor, appreciate your testimony. I think one of the 
common misconceptions that we deal with in wilderness 
designation is that this designation would somehow harm local 
economies. In your testimony, you state that this particular 
designation could be an asset to the community that you 
represent.
    Could you just talk about what that economic stimulus from 
a wilderness designation would do for the community you 
represent?
    Mr. Manchester. It is another piece of the marketing puzzle 
that is an asset for any area that is close by. In Lewisburg's 
case we are, as I mentioned, about 12 miles away from the Big 
Draft proposed wilderness area. We have the other end of the 
spectrum pretty well covered. Anybody who has ever been to the 
Greenbrier Resort in White Sulfur Springs knows that sort of 
high end pampering of a resort guest is far removed from 
wilderness.
    Right now, we have no wilderness areas in Greenbrier 
County, so if you look at the other end of the spectrum, being 
able to market and to be able to offer amenities on the 
wilderness end for those people who seek out that on a national 
basis I think will really help our economy, our small shops, 
our places.
    There are about 100 businesses throughout the state, many 
of which are in my community, who have signed on in support of 
the additional wilderness areas simply because they see the 
value of people coming into town, staying at the shops, 
shopping there, and dropping some money and improving the local 
economy.
    Mr. Grijalva. Thank you. Reverend Sparks, mostly a comment. 
I really don't have a question, just extend my appreciation for 
your testimony. I think your testimony, relative spiritual 
values in wilderness I believe is very profound, very 
thoughtful. In the discussions about wilderness, and 
conservation efforts on public lands and important lands across 
this country, that testimony is becoming more and more 
prominent.
    I want to thank you for bringing it to the Committee today. 
Appreciate it very much. Sir.
    Rev. Sparks. Well, thank you. I would say there is also a 
practical side to our testimony. Just as an example, as we seek 
tourism coming to West Virginia, through our work in flood 
recovery our preliminary research a couple of years ago said 
the churches have already brought $15 million worth of work 
projects to West Virginia.
    That is not counting those church groups who go out and do 
whitewater rafting or whatever afterwards. So we are really 
talking about new spiritual journeying into the wilderness, and 
we think so there will be a practical dimension from the faith 
side of this as well.
    Mr. Grijalva. Thank you. Mr. Price, one quick question. I 
think that as the Reverend and the Mayor also have discussed, 
some comments on what you believe the economic benefits will 
be. Congratulations on the Blue/Green Initiative. I think it is 
a very important precedent on this wilderness legislation. 
Congratulate all the parties for their cooperation on this 
issue.
    First of all, how many members in the AFL-CIO in West 
Virginia, and second, what do you see those economic benefits 
being down the road? Sir.
    Mr. Price. Approximately 60,000 under the West Virginia 
AFL-CIO representing approximately 420 unions. We see this as a 
possibility to open up many avenues of business coming in. They 
like to locate into places where the areas are clean and have 
beautiful places. Companies like to come into that. All these 
tourism businesses. It will create businesses.
    The union is always for any type of creating jobs for work, 
whether they be union or nonunion. We are always for that. This 
could even go into any type of the green-based type of economy, 
which we hope to get into these. So there is many, many 
possibilities there that this could create.
    Mr. Grijalva. Thank you, sir. Mr. Bittner, I had a 
question, but you answered it in your testimony. That had to do 
with the pressing threats on the Eastern Brook Trout, its 
habitats and what a wilderness designation would do to help to 
remedy and protect that. Unless there is something additional 
you would like to add to the comments you had in your 
testimony?
    Mr. Bittner. Well, I am glad that you picked that up from 
the statement. The loose forest litter floor, when that hasn't 
been compacted, it functions so much as a sponge to hold and 
absorb that water that is just so critical to us.
    Then, studies from the Forest Service have also shown that 
when you have an intact canopy and you have a rain event, it 
actually breaks up the size of the raindrops that hit the 
ground, also helping to disburse and prevent flooding. So 
anything that we can do to keep our streams cold and clean is 
going to benefit the Brook Trout. That is about all I have to 
contribute.
    Mr. Grijalva. Thank you, sir. Mr. Willis, just same 
economic question. What do you anticipate as a consequence of 
these designations, the increase in the amount of business that 
you receive in your establishment?
    Mr. Willis. Our county, we are in Pocahontas, which is 
about 63 percent state and Federal owned, so we have a large, 
large chunk of the Monongahela National Forest in there, 
numerous, probably four, five, six state parks. Cranberry 
Glades, back country and current wilderness areas are in our 
county.
    Our population is about a little over 10,000 residents. The 
annual income for Pocahontas County's residents is about 
$12,000 a year. This economy for years and years was a timber-
based. There were some people tanning leather there. As we all 
know, those industries have moved on, with the exception of the 
timber industry.
    I live right next door to a very large sawmill and a very 
large land owner, a private operator. So to lay all that out--
we also have of course a large ski area, too, the largest in 
the southeast in the south Snowshoe Resort.
    We have become more of a service industry over the last 20 
to 30 years, but tourism is not the only thing that is going to 
keep us living there. We have to kind of coexist with the 
timber industry and the other services that are going on there. 
The National Radio Astronomy facility is also there in 
Greenbank. So we have a real interesting dynamic there for the 
county.
    What has happened over the last 20 years is how Cranberry 
has impacted my personal economy and my business, and I think 
the economy of the county, is that people do come and use the 
wilderness. Some of them are primitive campers. You never see 
them. You might see their car parked along the road. The other 
part of that group is staying locally in a hotel, eating out, 
buying services.
    Some of those people like the area enough to where there 
are a lot of second homes there. We have a lot of retired 
community. That is the biggest boom right now is second home 
development. I hope I answered your question.
    Mr. Grijalva. Thank you very much. Let me thank all of you 
and turn to Chairman Rahall for any questions he might have. 
Sir.
    Mr. Rahall. Thank you, Mr. Chairman. Before I ask my 
questions, let me observe to this panel that history is in the 
making today. I sat in this room as a young freshmen Member 
over 30 years ago when we passed the legislation which 
established the new River Gorge National River in 1978. In 
1983, from this Committee, I advanced the Cranberry Wilderness 
bill, along with the Lower Fork North and South.
    And it was in this room that I proposed the designation 
that Gauley River National Recreation Area and Bluestone 
National Scenic River in 1988 and signed into law by then 
President Reagan. It was here, also, that I moved to create the 
National Coal Heritage Area in southern West Virginia, and to 
put the Upper New River in wild and scenic study status.
    Today, we are once again advancing the notion that we in 
West Virginia while making solid contributions to our nation's 
energy and security, we will draw the line when it comes to 
preserving some of our most special places, that we recognize 
that we have a duty to future generations to do this and this, 
then, is the stuff of legacy.
    To those of you who have come forward, know that after we 
are all long gone, as you have referred to in your testimony, 
Mr. Mayor, what we do here today will stand as testimony to our 
beliefs, our culture and our society.
    Gil, you have very well described Pocahontas County. My 
wife and I have stayed with you and Mary in your place of 
business. We have seen how you coexist with what is going on 
around you, and you have very accurately described what 
Pocahontas County is all about.
    You have also described from the business perspective what 
this means to economic development, as has the Mayor in answer 
to Chairman Grijalva's questions, because as Chairman Grijalva 
referred to, we often hear about that misperception from the 
business community that we are going to cost jobs in developing 
wilderness areas, but we know that to be untrue and that just 
the opposite is what we are doing here today.
    It is the economic value of wilderness that is important to 
our people and important for producing jobs, Mike, as you have 
so intimately been involved with over your years with the AFL-
CIO.
    I do have one question for Mr. Bittner, and you have given 
very excellent testimony and responded to the Chairman well. 
Can you talk a bit about the importance of headwaters 
protection that these wilderness designations would provide and 
how that can benefit the communities that are downstream from 
these headwaters?
    Mr. Bittner. All right. The least nice way to put it is 
what we call the delusion solution, OK? You have most of my 
neighbors are involved in agricultural production. They run 
cattle, they have poultry operations, they water their 
livestock, they spread composted litter and what not on their 
fields, which some of the nutrients in that eventually winds up 
into the watersheds in their area.
    As regulatory moves happen to deal with the Chesapeake Bay, 
because I live in the Potomac drainage, move upstream from us 
and try to restrict what they can do because of its effect all 
the way down in the bay, having the sources of really cold, 
really clean, absolutely pure water flowing in there provides a 
buffer for what they can do on their operations so that they 
have regulatory wiggle room.
    We saw that just a few years back on the North Fork of the 
South Branch where it became an impaired watershed, and the 
groups of farmers got together, changed some of their 
practices, instituted other management practices and got that 
taken off of the impaired waters list, working together.
    A stream like Seneca Creek or some of the others that are 
either proposed or in the legislation provides that source of 
water to provide essentially a diluting effect for downstream 
producers.
    Mr. Rahall. Thank you.
    Mr. Willis. Sir, could I also comment on that? I live on 
the headwaters of the Elk River, and I have about eight miles 
of what is called Old Field Fork which is above my farm that I 
live on. I am literally right on the river. Headwaters are so 
important, and it takes a long time living in that area to 
understand intimately what is going on with nature and how 
things fit together and evolve up in those areas.
    This part of West Virginia gets a lot of snow, and it gets 
a lot of rain. We have four true seasons throughout the year 
which make it spectacular of course. As an example, last year 
when we had this terrible drought on the western side of the 
state along the Ohio River, Virginia, North Carolina, Ohio, up 
and down the east coast, we continued to get rain in my valley.
    I am at 3,000 feet, and I am right on the river, so the 
ridges behind me go up to about 5,000 feet. So this whole area 
from the southern part of the Cranberry all the way to Canaan, 
a little east of us, a little west of us, Elkins is about the 
dividing line on the western side, we are in this rain zone, 
and when everyone else is in drought we are getting rain there.
    So it is such a valuable resource because all these springs 
up there continue to produce clean water. Last year it was up 
into August. So it is just a resource that is sort of in some 
ways being overlooked and in some ways it is not. Today, we are 
not overlooking it. We are looking out for it and we hope are 
going to protect it.
    These headwater areas also have a critical part to do with 
our flooding problem in West Virginia. The state and Federal 
government has spent a lot of money in the last 30 years with 
the 1985 flood, the 1993 flood, the 1996 flood. So more of 
these areas that are protected and have less activity going on 
in them, the more that water is held back, communities don't 
suffer, people don't get relocated.
    It is a chain reaction after a flood. I know, Congressman 
Rahall, you were in the middle of the 1985 flood, and the two 
other floods and it floods all over this country, but in our 
region it is a very serious thing. I think that headwater 
protection here today and down the road, as I mentioned in my 
testimony, is critical to fish species, to communities 
surviving, clean water, agriculture and the list goes on and 
on.
    Mr. Rahall. Beautiful. Beautiful. Thank you, Gil. Thank 
you, Bob, Mike, Reverend Sparks. This is beautiful, too. Very 
well put together, and I want more copies of it. Mayor, thank 
you for being with us today. Thank each of you. Excellent 
testimony. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Bishop.
    Mr. Bishop. Thank you. I will make this fairly brief. To 
the five of you who have testified today, I want to thank you 
for your willingness to come here and speak before this 
particular Subcommittee in this room. It is very kind of you. I 
appreciate the testimony. It was well-delivered, and the 
results we will have from it.
    I want to make two comments that I think I found as I was 
listening to this presentation of this hearing on this 
particular bill that is being introduced. Whenever you deal 
with the concept of wilderness red flags are thrown up all over 
the place. Coming up with a consensus on wilderness is a 
difficult path, too.
    I think Mr. Rahall in the introduction of the bill that is 
before us has been able to deal with that consensus concept. It 
is difficult, especially in the environment we have here, to 
have bipartisan input, but this consensus bill has bipartisan 
input. I think that is very important.
    Not only does it do that, it meets the Federal forest 
standards for the seven parcels that are being considered here 
today and does not impinge on successful management practices 
by the forest. So, indeed, there is something unique about the 
legislation that is here today in the fact that it is a 
consensus, it is a bipartisan consensus and it can move forward 
in that manner very effectively, probably more effectively than 
some other things we have here today.
    Appreciate the testimony, also, on the byproducts that this 
would be. I recognize that in river health as well as fishing 
health is concerned, river pooling is extremely important, 
especially you have a species that does any kind of spawning. 
That pooling concept is much different to accomplish in new 
growth forests as it is into old growth forests. Has a 
different connotation to it.
    Those are all important elements to be there. I was 
specifically pleased to hear the concept that this would not be 
an impediment to the industry of the area of West Virginia 
because most of the industry with which you are dealing is done 
on private lands. West Virginia should be complimented for 
having a very healthy and positive ratio between private lands 
and public lands.
    If we in the west had that same kind of ratio, there would 
be fewer problems that we would have concerned, and we would be 
able to solve more of our own problems and actually open up the 
goodness of individuals when you empower them to take their own 
responsibility of their own issues.
    I am waiting for that day when we have the same ratio that 
you have, Mr. Rahall, from the State of Utah because it makes a 
difference, and it solves a lot of these problems ahead of 
time. So I appreciate your testimony and being here, and I 
appreciate the opportunity and thank you. Thank you very much.
    Mr. Rahall. Would the gentleman from Utah yield just one 
final----
    Mr. Bishop. Do I have to?
    Mr. Rahall. Well, I am just going to offer an invitation 
for the next time your caucus holds their retreat at the 
Greenbrier in White Sulphur Springs right next to Lewisburg 
that after the passage of this proposal, perhaps more of your 
colleagues on your side of the aisle will be able to get out 
into the wilderness and experience what this legislation is 
going to create.
    Mr. Bishop. You notice, first of all, that when he is the 
Chairman, you have to yield, but, yes, I would be happy to do 
that if you can come out and see some private timber harvesting 
in Utah, if it ever existed again.
    Mr. Grijalva. That is the bipartisan spirit that I love. 
Mr. Chairman, thank you for the legislation. Ranking Member 
Bishop, thank you for your comments. Mr. Holtrop and the five 
panelists before us today, thank you so much. With that, the 
hearing is adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
